<html>
<title> - FREEDOM OF EXPRESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                         FREEDOM OF EXPRESSION

=======================================================================

                               REPRINTED

                                from the

                           2007 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
40-480                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                Senate

SANDER LEVIN, Michigan, Chairman     BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                   MAX BAUCUS, Montana
MICHAEL M. HONDA, California         CARL LEVIN, Michigan
TOM UDALL, New Mexico                DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota           SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania        CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California          GORDON H. SMITH, Oregon
CHRISTOPHER H. SMITH, New Jersey     MEL MARTINEZ, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor

                      Douglas Grob, Staff Director

               Murray Scot Tanner, Deputy Staff Director

                                  (ii)
                         Freedom of Expression


                              INTRODUCTION


    The Commission's previous recommendations addressed three 
areas where China's citizens do not enjoy the right to free 
expression. First, the Commission has noted that restrictions 
on the free flow of information threaten the well-being of 
Chinese citizens and, increasingly, citizens around the world. 
In its 2003 Annual Report, the Commission noted that China's 
news media restrictions prevented citizens from being fully 
informed during the 2003 SARS crisis. After China began 
considering a proposal in 2006 to further limit media coverage 
during public emergencies, the Commission recommended in its 
2006 Annual Report that the President and Congress urge China's 
leaders to recognize the importance of complete transparency in 
the administration of public health, and the importance of an 
unimpeded press in providing critical information to the public 
in a timely manner. Recent international concern over the 
global health impacts of food, drugs, consumer products, 
disease outbreaks, and pollution originating from China 
underscore the importance of the free flow of information.
    Over the last five years, public access to government 
information, at least on paper, has improved, but major 
obstacles to government transparency remain, reflecting the 
Communist Party's overarching concern that it maintain control 
over the flow of information. In 2007, the government passed 
China's first national ``freedom of information'' regulation, 
but it remains subject to a ``state secrets'' 
exception that gives the government broad latitude to withhold 
information. The Party and government continue to maintain 
tight control over the press, and the prospects for a free 
press remain dim. While foreign reporters in theory were 
granted some increased press freedom in accordance with 
promises China made in 2001 as part of its successful bid to 
host the 2008 Summer Olympic Games, China continues to use 
upcoming important events such as the Party's 17th Congress in 
October 2007, and corruption among Chinese reporters, as a 
pretext for increased restrictions on domestic media. The lack 
of a free press to monitor the government leaves citizens 
poorly informed about major problems and unable to fully 
investigate the root causes of such problems and the extent to 
which the Party or the government should be held accountable.
    Second, previous Commission reports highlighted China's 
pervasive censorship of the Internet and other electronic 
media. In its Annual Reports from 2002 to 2006, the Commission 
recommended that the President and Congress urge the Chinese 
government to stop blocking access to foreign news broadcasts 
and Web sites, and allow its citizens freer access to 
information on the Internet, particularly information 
concerning the rights of Chinese citizens to free speech and a 
free press. The Commission has also recommended that the 
President and Congress urge China to cease detaining 
journalists and writers, many of whom are punished for posting 
essays critical of the Chinese government on the Internet.
    Over the last five years, the Party and government have 
continued to emphasize management and control over the 
Internet. They have done so by requiring Web sites to be 
licensed, blocking access to politically sensitive information 
on the Internet, and detaining citizens who criticize the 
government online. In 2007, Hu Jintao called for ``purifying'' 
the Internet, saying ``the stability of the state'' depended on 
the Party taking full advantage of and successfully controlling 
the Internet. The Internet poses a daunting challenge for the 
Party. In 2007, citizen activists used the Internet and cell 
phones to raise public awareness about cases involving slave 
labor and the construction of a hazardous chemical plant, 
driving the reporting agendas of the state-controlled press and 
forcing the government to address these problems. Their 
success, however, reflects the creativity of China's citizenry 
in evading censors and the difficulty in trying to monitor 
China's growing online environment, rather than any government 
policy of liberalization. Furthermore, journalists and writers 
who criticize the government online continue to face 
imprisonment for such crimes as ``inciting subversion.''
    Third, the Commission's previous reports have noted China's 
prior restraints on publishing, which prevent citizens from 
freely expressing ideas and opinions. In its Annual Reports 
from 2003 to 2006, the Commission recommended that the 
President and Congress urge the Chinese government to eliminate 
prior restraints on publishing. Over the last five years, 
public officials in China have maintained prior restraints on 
publishing and continue to ban and confiscate books and 
magazines that do not conform to the Party's political 
requirements. This past year, publication and propaganda 
officials stepped up their efforts to clean up the publishing 
industry in preparation for the Party's 17th Congress to be 
held in October 2007.


                        FREE FLOW OF INFORMATION


         Improvements and Obstacles to Government Transparency

    The Commission notes that over the last five years, the 
Chinese government has made progress in increasing public 
access to government sources of information. The Communist 
Party and State Council have directed all levels of government 
to increase transparency.\1\ In its 2003 Annual Report, the 
Commission noted that most provinces and major cities had set 
up detailed government Web sites.\2\ By March 2007, 86 percent 
of all government agencies had official Web sites.\3\ Many of 
the Web sites provide detailed and substantive information.\4\ 
In addition, by the end of 2006, most central government 
institutions and all provinces, autonomous regions, centrally 
administered municipalities, and top-level courts had 
established public spokesperson systems.\5\
    Over the last five years, the government has also sought to 
improve its ability to respond to public emergencies and make 
information available to the public more quickly. The 
government's slow response to the SARS disease outbreak in 2003 
and to the Songhua River chemical spill in 2005 led to passage 
of measures to prevent provincial and local officials from 
covering up such incidents.\6\ The Regulation on the Handling 
of Public Health Emergencies, for example, requires provincial 
governments to report a public health emergency to central 
officials within one hour and requires central officials, or 
provincial governments who have received approval from central 
officials, to release information in a timely manner.\7\ 
However, as the Commission noted in its 2003 and 2006 Annual 
Reports, these reforms were not intended to relax the 
government's control over the media or the free flow of 
information to the general public.\8\ Rather, the goal was to 
increase the flow of information to central authorities in 
Beijing, control how the press reported on the matter, and 
prevent private citizens from publishing opinions regarding the 
government's handling of the crisis.
    In April 2007, the State Council issued the Regulation on 
the Public Disclosure of Government Information (Public 
Disclosure Regulation), the first national ``freedom of 
information'' regulation requiring all government agencies to 
release important information to the public in a timely 
manner.\9\ The new regulation, which takes effect on May 1, 
2008, requires government agencies to timely disclose vital 
information regarding the government's handling of issues that 
have been at the forefront of controversy in recent years, such 
as food, drug, and product safety, public health emergencies, 
environmental protection, land expropriation, the sale of 
state-owned property, and population planning.\10\ The 
regulation also provides citizens, legal persons, and other 
organizations with the right to request information from a 
government agency and to file an administrative lawsuit to 
appeal an agency's decision not to provide information.\11\ The 
State Environmental Protection Administration subsequently 
issued implementing measures in April mandating public 
disclosure of information on China's environment.\12\ [See 
Section II--Environment.]
    The impact of these freedom of information regulations is 
limited, however, by the presence of a ``state secrets'' 
exception that gives the government broad latitude to withhold 
information from the public.\13\ This policy reflects the 
continuing perception by the Party that relinquishing too much 
control over the flow of information will cause ``social 
instability'' and challenge the Party's supremacy. Chinese laws 
and regulations provide lists of what may be deemed a state 
secret, but these lists are broad and vague, encompassing 
essentially all matters of public concern.\14\ For example, 
information about China's environmental pollution that would 
``reflect negatively on China's foreign affairs work'' is 
considered a state secret.\15\ Legal scholars in China have 
noted that the inclusion of a ``state secrets'' exception in 
the Public Disclosure Regulation gives officials too much 
discretion to withhold information.\16\ In addition, the Public 
Disclosure Regulation's heavy penalties for officials who fail 
to protect state secrets may encourage even less 
transparency.\17\ Moreover, citizens and journalists have 
encountered resistance from local officials when requesting 
information under similar administrative rules already in place 
in some Chinese cities. In June 2006, a Shanghai journalist 
sued the Shanghai Municipal Planning Bureau under a similar 
freedom of information regulation, but lost the case and was 
fired from his job as a result.\18\ Some legal experts in China 
have also questioned whether provisions in such regulations, 
granting citizens the right to request information, would apply 
to citizens acting in their role as journalists, an 
interpretation that would severely limit the law's impact.\19\
    The National People's Congress recently issued the 
Emergency Response Law, which requires people's governments to 
publicly disclose accurate and timely information regarding 
emergencies.\20\ The law was issued in August 2007 and will 
take effect on November 1, 2007. The Commission noted in its 
2006 Annual Report that a draft of this law contained a 
provision that would have imposed a heavy fine on domestic or 
foreign media who reported on a public emergency without 
government approval.\21\ The Commission noted that the 
provision would have impeded the efficiency of the Global 
Public Health Intelligence Network, an electronic surveillance 
system used by the World Health Organization to monitor the 
Internet for reports of communicable diseases and communicable 
disease syndromes. In a positive step, the provision was 
removed from the final version of the law.\22\ The law, 
however, now contains a provision prohibiting the fabrication 
and spread of ``false information.'' \23\ Media who violate 
this provision may be shut down.\24\ This provision could have 
a chilling effect on journalists who worry that the government 
retains too much discretion to determine whether information is 
false or not.\25\ In January 2006, for example, public 
officials sentenced journalist Li Changqing to three years in 
prison for violating a Criminal Law provision that prohibits 
the ``intentional dissemination of terrorist information that 
is knowingly fabricated to disturb public order,'' even though 
Li's reporting on a dengue fever outbreak turned out to be 
materially similar to the government's own accounts.\26\
    Public officials have punished citizens for sharing second-
hand information over the Internet or cell phones, threatening 
the free flow of information and forcing citizens to wait for 
the government's official version of the ``truth'' before 
discussing important public events. Commentators in China have 
expressed concern over the government's liberal application of 
Article 25 of the Public Security Administration Punishment 
Law, which provides for the detention of citizens who spread 
rumors with the intent to disturb public order.\27\ [See 
Section II--Rights of Criminal Suspects and Defendants for more 
information about this law.] For example, in July 2007, 
officials in Jinan city, Shandong province, detained a resident 
for noting in an online discussion that she had heard that 
citizens had perished in heavy flooding that hit the city.\28\
    The Supreme People's Court (SPC) has continued its campaign 
to increase public access to court proceedings. As the 
Commission noted in its 2003 Annual Report, the SPC has taken 
steps to improve the quality and availability of judicial 
decisions.\29\ In June 2007, the SPC issued several opinions 
calling on courts to provide public access to all stages of the 
trial process,\30\ and to make more judgments available in 
publications and over the Internet.\31\ The opinions, however, 
contain the ``state secrets'' exception, which courts have 
commonly used to conduct politically charged trials behind 
closed doors.\32\ [See Section II--Rights of Criminal Suspects 
and Defendants for more information about these opinions.] In 
addition, court officials concerned about media threats to 
judicial independence have sought to limit media reporting of 
court activities. In September 2006, top officials at the SPC 
announced a policy prohibiting news media from interviewing 
judges or court officials without government permission and 
directing the media not to issue commentary on pending court 
cases.\33\


                             NO FREE PRESS


    China's restrictions on the press violate the right to 
freedom of expression as provided for under international human 
rights standards and China's Constitution. Both the 
International Covenant on Civil and Political Rights\34\ 
(ICCPR) and the Universal Declaration on Human Rights\35\ 
(UDHR) guarantee the freedom to seek, receive, and impart 
information, through any media, regardless of frontiers. 
Article 35 of China's Constitution provides China's citizens 
freedom of speech and the press.\36\ While this freedom is not 
absolute, the ICCPR and UDHR provide that restrictions may be 
imposed only to protect the following interests: national 
security or public order, public health or morals, or the 
rights or reputations of others. Furthermore, the restriction 
must be prescribed by law and must not exceed the scope 
necessary to protect a compelling interest.\37\ China restricts 
the press for political and ideological reasons. Restrictions 
such as directives from propaganda officials are not prescribed 
by law because they are issued by a Communist Party entity, 
rather than one of the parties authorized to pass legislation 
under China's Legislation Law.

                Party and Government Control Over Media

    China's media could play an important role in helping 
inform the public about important events but, as noted above, 
recent laws and regulations dealing with government disclosure 
and public emergencies limit this potential. A more fundamental 
limitation, however, is the Party's continued control over all 
media in China, 
either directly or through its control over the government 
agencies that regulate China's media. The Party exercises 
direct control over the media through the Central Propaganda 
Department (CPD). The CPD issues directives informing 
publishers and editors what stories can and cannot be covered. 
It works together with lower-level propaganda departments to 
deliver these directives to all media and to appoint media 
managers to monitor each publication.\38\ The CPD also requires 
editors and publishers to attend 
indoctrination sessions. In addition, government agencies 
heavily regulate the media. News publishers must be licensed by 
the General Administration of Press and Publication (GAPP) and 
have a government sponsor.\39\ GAPP requires all journalists to 
be licensed.\40\ The State Administration of Radio, Film, and 
Television (SARFT) controls the content of radio, television, 
satellite, and Internet broadcasts.
    Major media, such as the People's Daily and Xinhua, remain 
closely affiliated with a Party or government entity.\41\ 
Central Party and government officials use journalists to 
gather information so that they can monitor provincial and 
local officials, under a policy called ``public opinion 
supervision.'' \42\ Stories they deem too critical or 
politically sensitive to be published in the media are instead 
forwarded as intelligence reports to relevant officials through 
classified channels.\43\ Commercialization of the industry in 
the 1990s and the ``public opinion supervision'' policy has led 
to the development of media with a reputation for more hard-
hitting journalism, including Southern Metropolitan Daily and 
Caijing.\44\ Yet, even these more independent media remain 
subject to control by propaganda officials and have been 
singled out for punishment in the past.\45\

                  Roles the Media Is Expected to Play

    The media in China is expected to act as the Party's 
mouthpiece.\46\ Just before becoming President and Party 
General Secretary, Hu Jintao, in 2002, reiterated this 
longstanding policy, which has remained firmly in place during 
Hu's first five years in power.\47\ For example, the Party's 
Central Committee issued a resolution at the end of its sixth 
plenum meeting in October 2006, calling on the news media to 
promote Hu's ``harmonious society'' policy.\48\ To create a 
``positive public opinion atmosphere'' for the Party's 17th 
Congress in October 2007, propaganda officials issued 
guidelines restricting media coverage of 20 topics, including 
the 50th anniversary of the anti-Rightist campaign, judicial 
corruption, and campaigns by legal rights defenders.\49\ SARFT 
ordered television stations to air only ``ethically inspired TV 
series'' during prime time in the months leading up to the 
Party Congress.\50\
    The Party also expects the media to paint central Party and 

government officials in a positive light. While media may 
report critically on the activities of provincial and local 
officials, their criticisms must remain at that level and may 
not threaten Party supremacy. The media must emphasize efforts 
by central Party and government officials to remedy the 
situation. For example, after news media and Internet activists 
exposed the widespread use of forced labor in brick kilns in 
May and June 2007, authorities chided local officials for 
trying to hide information from the media, but then instructed 
journalists to limit their coverage and to applaud the rescue 
efforts of central Party and government officials.\51\
    Media that disobey propaganda directives or publish content 

unacceptable to censors continue to risk being disciplined or 
censored by the Party. In November 2006, the CPD ordered senior 
executives at the Beijing-based weekly magazine, Lifeweek, to 
engage in self-criticism and required its journalists to 
undergo political training after the magazine violated a Party 
directive not to highlight politically sensitive events.\52\ 
Staff at a newspaper in Sichuan province were suspended for 
inadvertently running an 
advertisement that included a veiled reference to the Chinese 
government's June 4, 1989 crackdown on the Tiananmen Square 
democracy protests.\53\ In March 2007, Caijing was reportedly 
ordered to withdraw an issue containing an article about a 
contentious draft of the Property Law then under 
consideration.\54\

                Consequences of the Lack of a Free Press

    Over the last five years, events such as the SARS crisis in 
2003 and more recent government scandals show that the Party's 
control over the press denies citizens critical information at 
important times. Chinese citizens and citizens around the world 
cannot effectively monitor the Chinese government because they 
remain dependent on the willingness of one unsupervised source, 
the Party, to provide accurate, timely, and unbiased 
information. Some recent examples include:

        <bullet>  Even after measures implemented following the 
        SARS crisis in 2003 discouraged local officials from 
        hiding information, local officials in the provinces of 
        Jilin and Heilongjiang delayed notifying relevant 
        officials and the general public about a chemical plant 
        explosion in 2005 that released chemicals into the 
        Songhua River, the main water source for the 
        Heilongjiang capital of Harbin.\55\ They imposed a two-
        week press blackout, and the incident led to panic 
        among citizens and a diplomatic incident with Russia.
        <bullet>  When the top Party official in Shanghai was 
        forced to step down in September 2006 amid allegations 
        that he had mismanaged the city's nine billion yuan 
        (US$1.2 billion) pension fund,\56\ propaganda officials 
        ordered local media to publish only official news 
        reports from Xinhua.\57\ During this time, Shanghai's 
        municipal government reportedly did not hold a press 
        conference for almost four months.\58\
        <bullet>  In May 2007, international and Hong Kong 
        officials complained that Chinese officials were tight-
        lipped about a rumored epidemic affecting pigs in a 
        province near Hong Kong, and about contaminated pet 
        food that had reportedly caused large numbers of cats 
        and dogs in the United States to become ill.\59\ 
        China's media had reportedly issued few reports on the 
        incidents.\60\
        <bullet>  In July 2007, the Financial Times reported 
        that officials at the State Environmental Protection 
        Administration and Ministry of Health asked the World 
        Bank to remove from a joint report the figure of 
        750,000 premature deaths every year in China, caused 
        mainly by air pollution.\61\ Officials reportedly said 
        the information was ``too sensitive'' and could cause 
        ``social unrest.'' \62\ A foreign ministry official 
        denied the charge that any information had been 
        censored.\63\
        <bullet>  In July 2007, propaganda officials ordered 
        restrictions on food safety reports after a Beijing 
        reporter issued a false news report alleging that food 
        vendors were filling steamed buns with pieces of 
        cardboard.\64\

                   Limited Prospects for a Free Press

    Central government officials have urged local officials to 
cooperate more with the media, but this development should not 
be interpreted as a shift in government policy to allow for a 
freer press.\65\ For example, in July 2007, a State Council 
Information Office official criticized local officials for 
blocking media coverage of the forced labor scandal at brick 
factories in central China.\66\ This criticism is consistent 
with the central government's ``public opinion supervision'' 
policy of relying on journalists to gather information so that 
they can monitor provincial and local officials. The central 
government's support of this policy has, however, given 
commentators in China justification for calling for broader 
press freedom, 
although they have been careful to do so in the context of 
local initiatives to restrict press freedom and to fashion 
arguments consistent with ``public opinion supervision.'' \67\ 
For example, a deputy editor at Southern Weekend argued in an 
editorial that the purpose of news is not to serve as a 
propaganda tool, and that the central government's ``public 
opinion supervision'' policy is intended for the press to be a 
check on public power.\68\ The editorial was in response to the 
Anhui provincial government's issuance in October 2006 of rules 
requiring journalists to write a minimum number of ``positive'' 
stories about Anhui in order to receive a promotion.\69\
    The Chinese government also allowed foreign journalists 
greater freedom in 2007. To fulfill China's commitment to give 
journalists ``complete freedom'' to report on China when it bid 
for the 2008 Summer Olympic Games in 2001,\70\ Premier Wen 
Jiabao signed into law new regulations in December 2006, which 
eliminate the requirement that foreign journalists must obtain 
government permission before conducting interviews.\71\ The new 
rules, which went into effect on January 1, 2007 and expire on 
October 17, 2008,\72\ have had mixed results. The Foreign 
Correspondents Club of China, an association of Beijing-based 
foreign journalists, and Human Rights Watch both issued reports 
noting that while some journalists have said that China's 
reporting environment has improved, harassment, intimidation, 
and detention of foreign journalists and the Chinese citizens 
they interact with remains commonplace.\73\ Problems have 
included intimidation of citizens who speak to foreign 
journalists,\74\ harassment of journalists in politically 
sensitive areas such as the Tibet Autonomous Region,\75\ 
harassment of citizens who work with foreign journalists,\76\ 
and the refusal of local officials to recognize that the new 
rules extend to non-Olympics related coverage.\77\ It remains 
to be seen whether the rules will be extended beyond the 
Olympics and what effect they will have on domestic 
journalists. For a more detailed and updated analysis on the 
impact of these regulations on freedom of expression in China, 
see the Commission's Web site at www.cecc.gov. 
    One obstacle to press freedom in China is that the state's 
control over the media contributes to corruption in the media. 
According to David Bandurski, a research associate at the China 
Media Project at the University of Hong Kong: ``Media 
corruption is facilitated by the quasi-official status of 
reporters, who are seen by many Chinese as government 
functionaries with special authority. This combination of power 
and profit motive is a key ingredient in many extortion 
attempts.'' \78\ In May 2007, the People's Daily reported that 
a person who had posed as a reporter and top editor at the 
paper had collected 3.79 million yuan (US$500,000) in bribes 
before being caught and sentenced to life in prison.\79\ 
Problems of journalists asking for bribes in return for not 
publishing negative news or writing a positive story are 
reportedly widespread.\80\
    This corruption has provided the state with a pretext to 
restrict China's media even more.\81\ In March 2007, for 
example, the GAPP issued a notice requiring media to take 
greater measures to purge their local offices of unlicensed 
journalists after one was beaten to death by the owner of an 
illegal coal mine who thought the journalist was seeking a 
bribe.\82\ Later in 2007, a Beijing journalist falsified a 
report on food vendors filling steamed buns with cardboard. 
Amid rising international concern over China's food exports, 
China responded with a crackdown on false news and illegal 
publications, including ``illegal political newspapers and 
magazines that fabricate political rumors.'' \83\


                          INTERNET CENSORSHIP


                        China's Internet Policy

    Since the Internet first became popular in the late 1990s, 
China's policy has emphasized management and control over this 
medium. In a January 2007 speech to Politburo officials, 
Communist Party General Secretary Hu Jintao called for 
``purifying'' the Internet environment, saying that ``the 
stability of the state'' depended on the Party taking full 
advantage of and successfully controlling the Internet.\84\ 
China has controlled the Internet through licensing 
requirements for Web sites, shutting down and blocking access 
to Web sites that post political content, and detaining 
citizens who criticize the government online or post 
politically sensitive content. Its efforts have been relatively 
successful. Despite heavy censorship, many citizens consider 
the Internet in China to be quite free, with unprecedented 
access to information about sports, entertainment, and 
business, and in some cases, political content that China fails 
to block. According to a recent survey, more than 80 percent of 
Internet users in China are satisfied with the diversity of 
content.\85\
    Far from simply limiting online information that runs 
counter to the Party's ideology, the Party has sought to use 
the Internet to bolster its monopoly on political power and to 
drive China's economy. According to the World Bank, information 
and communication technologies have led China's economic 
ascent, growing two to three times faster than China's overall 
GDP over the last 10 years.\86\ Internet use has skyrocketed 
from 59 million users in 2002 to 162 million in June 2007.\87\ 
According to Tim Wu, an expert on China and a professor at 
Columbia Law School, ``the Chinese government has seen the 
Internet as an enormous opportunity at igniting public opinion 
in its favor.'' \88\ During his January 2007 speech to 
Politburo officials, President Hu emphasized the central role 
the Internet plays in the Party's efforts to shape public 
opinion.\89\ China views the Internet as a battleground for 
public opinion that is currently monopolized by the West,\90\ 
and has sought to overcome this perceived monopoly by 
increasing Chinese sources for online information. The fact 
that it is easy to communicate with large numbers of people 
over the Internet, and that users rely heavily on the Internet 
for news and information, make the Internet a powerful platform 
for promoting the Party's ideology and policies.

                    Measures To Control the Internet

    China's measures to control the Internet do not conform to 
international standards for freedom of expression. Under the 
ICCPR and UDHR, such restrictions may be imposed only if they 
are provided by law and are necessary to protect national 
security or public order, public health or morals, or the 
rights or reputations of others.\91\ In some cases, China has 
imposed restrictions to address issues of public concern, such 
as privacy protection, false advertisements, spam, online 
pornography, and youth addiction to the Internet.\92\ But 
public officials in China also prohibit citizens from 
accessing or posting online content if they find such content 
to be politically unacceptable without any formal determination 
of necessity based on ICCPR and UDHR standards.
Licensing System
    As noted in the Commission's 2006 Annual Report, the 
government requires all Web sites in China to be either 
licensed by, or registered with, the Ministry of Information 
Industry (MII).\93\ Web sites that fail to register or obtain a 
license may be shut down and their operators fined.\94\ 
Authorities appear to be shutting down more Web sites in 
preparation for the 17th Party Congress, many for being 
unregistered.\95\ Anyone wishing to post or transmit news 
reports or commentary relating to politics and economics, or 
military, foreign, and public affairs, must also have a 
government license.\96\ According to the OpenNet Initiative, 
``In large measure, the registration regulation is designed to 
induce Web site owners to forego potentially sensitive or 
prohibited content, such as political criticism, by linking 
their identities to that content. The regulation operates 
through a chilling effect.'' \97\ China continues to draft 
regulations to bring new forms of online media into the 
registration system. In April 2007, for example, Xinhua 
reported that the General Administration of Press and 
Publication (GAPP) had drafted the Regulation on the 
Supervision of Internet Publishing, which would require online 
magazines to be examined and approved by GAPP prior to 
publication.\98\
Monitoring, Blocking Access, and Filtering Content
    China has continued to block access to foreign Web sites, 
which it is able to do because it controls access at the 
gateway connection between China and the global Internet.\99\ 
Over the past five years, the Commission has noted that at 
various times China has blocked the Web sites of AltaVista, 
Google, and foreign news providers such as the Voice of 
America, Radio Free Asia, and the BBC, and human rights 
advocacy groups such as Human Rights Watch, Human Rights in 
China, Reporters Without Borders, and the Committee to Protect 
Journalists. The Commission has noted in its recommendations on 
the Internet that China's censorship system prevents its 
citizens from accessing information about their rights and 
China's violations of them. Since May 2005, the Chinese 
government has prevented its citizens from accessing the 
Commission's Web site. In June 2007, China reportedly unblocked 
access to the English Wikipedia Web site after it had been 
blocked for most of the last 18 months, but the version of 
Wikipedia designed for Chinese users remained blocked. Bloggers 
reported that certain pages on the English site remained 
blocked as well, such as those relating to Tibet or Tiananmen 
Square.\100\ In July, Yahoo!'s photo sharing Web site, Flickr, 
reported that China had blocked its site, after ruling out the 
possibility of a technical problem.\101\
    China employs a large number of public security officials 
to monitor the Internet and is improving its monitoring 
capabilities as Internet usage grows. In April 2007, Xinhua 
reported that by the end of June, all major portals and online 
forums would be monitored by ``virtual cops'' of the Ministry 
of Public Security.\102\ In May, the MII announced that by 
October the ministry would complete a database of registered 
Web sites that would make it easier for law enforcement 
officials to keep track of the rapidly growing number of Web 
sites.\103\ Xinhua reported that more than 2,000 Web sites are 
registered each day.\104\
    China compels Internet companies to assist in censorship by 
requiring them to filter search results and to monitor the 
Internet activities of its customers to ensure that ``harmful 
information'' does not come online. Chinese search engines such 
as Baidu, and the China-based search engines of Yahoo!, MSN, 
and Google filter search results, including those relating to 
the Voice of America, Radio Free Asia, and human rights.\105\ 
Providers of Internet access and services must monitor 
customers' online activity, maintain records of such activity, 
provide such information to officials as part of a ``legal 
investigation,'' and remove any ``harmful'' information.\106\ 
In February 2007, Radio Free Asia reported that Sohu.com, a 
major Chinese Internet portal, had shut down two of the blogs 
of Pu Zhiqiang, a prominent lawyer who has promoted citizens' 
legal rights.\107\ Internet cafes, where many Chinese access 
the Internet, are also required to record the identities of 
their customers, monitor their online activity, and maintain 
records of both for not less than 60 days.\108\
    Internet companies have also repeatedly pledged publicly to 
support China's censorship policies over the last five years, 
although they have shown a willingness to resist some 
proposals. This past year, the Internet Society of China (ISC), 
a think tank affiliated with the MII, sought to implement a 
policy requiring all bloggers to register under their real 
names. Real name systems may be useful for encouraging civil 
discourse and accountability, but in the context of China's 
tightly censored Internet it threatens what has become a haven 
for expression, as bloggers had come to rely on a veneer of 
anonymity\109\ that had emboldened many to publicly express 
opinions they otherwise would not have. Real name systems that 
have already been implemented have reportedly led to dramatic 
drops in participation.\110\ In May 2007, the ISC decided 
against making the proposal mandatory following industry 
resistance.\111\ Instead, major Internet companies such as Sina 
Corporation, NetEase.com, Inc., TOM Online, Inc., Yahoo! China, 
which Yahoo! retains a minority stake in but reportedly does 
not have day-to-day operational control over,\112\ and MSN's 
China service, signed a self-discipline pledge in August to 
encourage Internet users to use their real name when posting 
blogs or essays online.\113\ Yahoo! and MSN, however, both 
indicated that there were no current plans to require customers 
to use their real names to register for blogging services.\114\
Imprisoning Online Critics
    Over the last five years, public officials in China have 
frequently used Article 105 of the Criminal Law to detain 
citizens for criticizing the government and the Party online, 
especially on Web sites outside of China.\115\ Article 105 
outlaws ``subversion'' or ``incitement of subversion.'' The UN 
Working Group on Arbitrary Detention has criticized China's use 
of such ``vague, imprecise, and sweeping'' provisions to punish 
peaceful expression of rights guaranteed in the UDHR and 
ICCPR.\116\
    Over the past year, public officials in China have punished 
numerous online critics in the run-up to the 17th Party 
Congress and the 2008 Beijing Summer Olympic Games.

        <bullet>  In October 2006, a court in Hebei province 
        sentenced Internet essayist Guo Qizhen to four years in 
        prison for inciting subversion in connection with 30 
        essays he posted on a U.S.-based Web site.\117\
        <bullet>  In October 2006, a court in Shandong province 
        sentenced Internet essayist Li Jianping to two years in 
        prison for inciting subversion in connection with 
        essays he posted on foreign Web sites.\118\
        <bullet>  In March 2007, a court in Zhejiang province 
        sentenced writer Zhang Jianhong (whose pen name is Li 
        Hong) to six years in prison for inciting subversion by 
        ``slandering'' the government and China's social system 
        in 60 essays he posted on foreign Web sites.\119\
        <bullet>  In April 2007, a Zhejiang court sentenced 
        painter and writer Yan Zhengxue to three years in 
        prison for inciting subversion by ``attacking the 
        Party's leaders'' on foreign Web sites.\120\
        <bullet>  In August 2007, a Zhejiang court sentenced 
        writer Chen Shuqing to four years in prison for 
        inciting subversion after he criticized the government 
        online.\121\

    The above individuals in Zhejiang were reportedly members 
of the China Democracy Party (CDP) or charged with being a CDP 
member,\122\ and joined other reported CDP members in Zhejiang 
who were punished this past year, including Chi Jianwei and Lu 
Gengsong. Chi was sentenced to three years in prison in March 
for ``using a cult to undermine implementation of the law'' 
\123\ and Lu was detained in August on charges of inciting 
subversion.\124\ [See Section III--Civil Society for more 
information on the CDP.] 
Authorities also refused to renew the license of Li Jianqiang, 
the lawyer who represented Chen, Zhang, Yan, and Guo.\125\ Li 
has represented numerous writers and activists, including 
freelance writer Yang Tongyan (whose pen name is Yang 
Tianshui), sentenced in May 2006 to 12 years in prison on 
``subversion'' charges for criticizing the government online 
and attempting to form a branch of the CDP.\126\
    Public officials in China have also used Article 105 to 
punish citizens who criticize China's human rights record in 
the context of the 2008 Olympic Games. In August 2007, public 
security officials in Jiamusi city, Heilongjiang province, 
arrested Yang Chunlin and charged him with inciting subversion 
after he organized an open letter titled ``We Want Human 
Rights, Not the Olympics,'' and gathered more than 10,000 
signatures from farmers who had reportedly lost their 
land.\127\
    Additional information on these cases and others is 
available on the Commission's Political Prisoner Database [See 
Section I--Political Prisoner Database].
    Both the UDHR and ICCPR allow for restrictions on free 
speech only to the extent necessary to protect national 
security. Available opinions from these cases, however, provide 
no examples of any subversive language and make no attempt to 
show that the actions in question caused or were likely to 
cause a threat to China's national security.\128\ Moreover, the 
courts did not place any constitutional limitations on the 
authority of the government to criminalize certain types of 
speech, or balance the need to protect national security with 
the right to freedom of expression. Chinese officials have also 
begun to punish citizens for simply looking up and viewing Web 
sites deemed to be reactionary or a threat to its power. Zhang 
Jianping was barred from using the Internet for six months 
after he allegedly accessed the Web site for the Epoch Times, a 
New York-based newspaper linked to Falun Gong and known for its 
critical coverage of China.\129\

                         Challenges to Control

    The Internet presents a daunting challenge for the Party. 
Its decentralized nature and the ability to send information to 
large numbers of people quickly makes it increasingly difficult 
to control.\130\ This challenge is expected to increase over 
time as more people use the Internet and rely on it for 
information. With a penetration rate of only 12.3 percent of 
China's population, below the world average of 17.6 percent, 
there is plenty of room to grow.\131\ The average number of 
hours per week spent online rose from 11.5 in 2002 to 18.6 in 
June 2007. Almost all Internet users in China look to the 
Internet first for information and more than three-fourths said 
that they first found out about a major news event from the 
Internet.
    Commentators have noted recently that the Internet and 
blogs in particular are becoming a powerful vehicle for 
citizens to provide one another information that contrasts with 
information in the state-controlled press and Party propaganda. 
The number of blogs, personalized Web pages that citizens use 
to provide running commentary on all kinds of topics, has grown 
to an estimated 20 million in China.\132\ Xiao Qiang, Director 
of the China Internet Project at the University of California 
at Berkeley, testified at the Commission's hearing in September 
2006 that ``[o]nline discussions of current events, especially 
through Internet bulletin board systems (BBS) and Weblogs, or 
`blogs,' are having real agenda-setting power.'' According to 
Ashley Esarey, a Middlebury College professor and expert on 
China's media controls, China's blogs exhibit much higher 
freedom and pluralism than the state-controlled press.\133\ The 
Internet has provided a platform for ``citizen journalists'' 
who operate largely outside of the censorship system for 
traditional media\134\ and citizens are using less regulated 
blogs to break news stories. ``[E]very blogger is a potential 
source of news. The Internet has the power to take any local 
news story and make it national news overnight,'' said Li 
Datong, the ousted former editor of Freezing Point, a weekly 
published by the China Youth Daily, who now writes for the 
current affairs Web site openDemocracy.\135\
    Other information sharing technologies, especially cell 
phones, are posing similar challenges to China's information 
control. Cell phone use is ubiquitous in China and popular 
among broad segments of the population. By July 2007, cell 
phone usage had grown to 500 million, almost 40 percent of the 
population.\136\ Rural residents made up nearly half of China 
Mobile's 53 million new cell phone subscribers in 2006.\137\ 
While cell phones are a less conducive platform for exchanging 
large amounts of information, in China they are a popular tool 
for sending short text messages. Chinese of all ages use the 
``text messaging'' function much more often than in the United 
States, where it has remained largely the province of the 
young.\138\ China also employs censorship technology to filter 
out politically sensitive text messages.\139\
    Citizens have been using the Internet and cell phones with 
increasing success to shape and even drive the reporting 
agendas of mainstream news outlets, and to force governments to 
address problems. Censors have not been able to stop an initial 
tide of information and instead have been left to contain the 
situation after the fact. Several high-profile instances over 
the last year include:

        <bullet>  Officials in the southeastern port city of 
        Xiamen, home to more than 2 million people, planned to 
        build a 300-acre, 10.5 billion yuan (US$1.4 billion) 
        hazardous chemical plant in a heavily populated 
        neighborhood.\140\ In March 2007, central government 
        officials criticized the project's safety,\141\ but 
        officials in Xiamen kept local residents in the dark 
        about the concerns and made sure local media touted the 
        project's economic benefits.\142\ A local resident who 
        became aware of the concerns began to use his blog to 
        organize opposition to the plant, telling readers the 
        plant would hurt the local property market and tourism 
        industry.\143\ Word quickly spread over the Internet. 
        Meanwhile, residents began to circulate cell phone text 
        messages comparing the plant to an ``atomic bomb.'' 
        \144\ Xinhua 
        reported that citizens sent nearly one million text 
        messages opposing the project, leading local officials 
        to suspend construction in May 2007.\145\ Despite local 
        officials' efforts to censor the Internet and cell 
        phones, area residents used both to organize and 
        document protest marches in early June that attracted 
        thousands.\146\
        <bullet>  The Internet also helped bring nationwide and 
        international attention to the kidnapping of migrant 
        workers forced into labor in brick factories in central 
        China. In early June 2007, the relative of a rescued 
        child posted a plea on the Internet on behalf of 
        hundreds of parents still looking for missing 
        children.\147\ The post was rejected by a Xinhua forum 
        for containing ``sensitive content,'' but was 
        successfully posted on 
        another forum. Her original post and a re-posting were 
        each viewed hundreds of thousands of times. Following 
        the postings, China's traditional media outlets gave 
        the story extensive coverage, exposing in graphic 
        detail the large numbers of migrant workers, including 
        many children and mentally ill, who were forced under 
        heavy guard to work for no pay and little food.\148\ In 
        response, the government launched raids involving a 
        reported 35,000 policemen, ordered media to highlight 
        the Party's rescue efforts, sought to discredit the 
        Internet activist who helped uncover the scandal, and 
        warned parents and lawyers for victims not to speak to 
        journalists.\149\ [See Section II--Worker Rights for 
        more information on the labor issues relating to this 
        case.]
        <bullet>  In March 2007, Chinese bloggers made a 
        national news sensation of a couple in Chongqing city 
        in western China who resisted pressure to sell their 
        home to developers, leaving their house protruding in 
        the air like a nail after the land around it had been 
        excavated.\150\ Bloggers posted photos of the ``awesome 
        nail house'' and traveled to the scene to conduct their 
        own reporting of the story, which hit the headlines 
        shortly after the landmark Property Law had been 
        passed.\151\

    While these technological tools have offered citizens new 
opportunities to express themselves and to elude censors, they 
have not 
increased citizens' freedom of expression per se, as the 
Chinese government has consistently responded to these 
outpourings of discontent with increased restrictions. 
Officials imposed restrictions on media coverage, blocked 
access to or removed offending blogs and cell phone text 
messages, and in some cases warned citizens not to speak with 
the media.\152\ After the Xiamen chemical plant protests, for 
example, local officials drafted legislation that would 
prohibit area Internet users from commenting on blogs and 
discussion forums anonymously and require local Internet 
service providers to improve their capability to filter out 
``harmful and unhealthy'' information.\153\


                 FREEDOM TO PUBLISH IDEAS AND OPINIONS


                  Government Policy Toward Publishing

    The Chinese government's licensing scheme for print 
media\154\ that has remained in place over the last five years 
does not conform to international standards for freedom of the 
press.\155\ An individual who wishes to publish a book, 
newspaper, or magazine may not do so on their own, but must do 
so through a publisher that has been licensed by the General 
Administration of Press and Publication (GAPP).\156\ The GAPP 
requires that to obtain a license, publishers must have a 
government sponsor and meet minimum financial 
requirements.\157\ Every book, newspaper, and magazine must 
have a unique serial number, and the GAPP maintains exclusive 
control over the distribution of these numbers.\158\ GAPP 
officials have explicitly linked the allotment of book numbers 
to the political orientation of publishers.\159\
    While not speaking specifically about this licensing 
scheme, Premier Wen Jiabao acknowledged in March that 
government agencies with too much licensing authority, and 
little restraint or oversight, had bred corruption among 
officials.\160\ In July, popular writer Wang Shuo accused 
television censors of abusing their authority and collecting 
bribes in exchange for a television show's approval, a 
situation that one official acknowledged, but denied being 
widespread.\161\ Concern over corruption has not stopped 
officials from continuing to expand their licensing authority 
over free expression. In April 2007, the Ministry of Culture 
announced that it would begin to require actors, singers, 
directors, and other artists to receive certification in order 
to be hired.\162\
    Publishers and writers must serve the Communist Party's 
interests. Long Xinmin said in October 2006 while he was 
director of GAPP that press and publishing departments must 
``insist on the unwavering guiding position'' of Marxism and 
the Party.\163\ In November, President Hu Jintao told writers 
that the Party hoped that ``each would make their own 
contribution to building a harmonious society.'' \164\ In March 
2007, Long Xinmin said that press and publishing industries 
must ``firmly grasp the correct guidance of public opinion and 
create a good public opinion environment'' for the Party's 17th 
Congress and ``harmonious society'' policy.\165\

             Banning and Confiscating Illegal Publications

    The government continues to target publications that 
contain 
political and religious information and opinions with which the 
government disagrees or for simply not having a license to 
publish. Between 2002 and 2006, public security officials in 
China confiscated 590 million ``illegal publications.'' \166\ 
Many of the publications are targeted for violating 
intellectual property rights or containing pornographic 
content, but in 2004, for example, public officials confiscated 
hundreds of thousands of copies of publications solely 
because of their political content. In 2005, officials seized 
996,000 copies of ``illegal political publications.'' During a 
two-month period in 2006, officials seized 303,000 copies of 
``illegal publications'' deemed to have harmed social 
stability, endangered state security, or incited ethnic 
separatism.\167\ During that same period, officials confiscated 
616,000 unauthorized newspapers and periodicals.\168\ In 
February 2007, a GAPP official explained that a crackdown on 
``illegal political publications,'' including those that 
``attacked the Party's leaders,'' ``slandered the socialist 
system,'' or concerned Falun Gong, would be a major focus of 
the ongoing Sweep Away Pornography and Strike Down Illegal 
Publications campaign in preparation for the Party's 17th 
Congress.\169\ [See Section II--Freedom of Religion--Religious 
Speech for more information on restrictions on religious 
publications.] In the first three months of 2007 alone, 
authorities confiscated 357,000 copies of publications deemed 
to have harmed social stability, endangered state security, or 
incited ethnic separatism.\170\
    China's onerous licensing requirements encourage citizens 
to publish illegally, eroding the rule of law, and subjecting 
them to the risk that they will be caught and their publication 
shut down. One editor of a college magazine in China said in 
June 2007 that he had set up his own campus magazine because he 
had been disappointed with other magazines in China, which he 
described as ``homogeneous, very contrived, and lacking in 
energetic content.'' \171\ A professor commenting on the 
publications, however, said that without a publication number 
the students were engaged in illegal publishing. The professor 
said the licensing system was intended to ensure that 
publications were not ``abused by certain groups.'' \172\

                         Censoring Publications

    Authors who have published through a licensed publisher 
still risk being censored. Propaganda officials decide what to 
censor behind closed doors, making verification difficult and a 
legal challenge impossible. The Hong Kong-based South China 
Morning Post reported that at a meeting in January 2007, GAPP 
said it had banned eight books because propaganda officials 
determined they had ``overstepped the line.'' \173\ The books 
dealt with topics such as China's media, SARS, the Cultural 
Revolution, the Great Leap Forward, and democracy. Officials 
reportedly criticized one of the books for ``romanticizing'' 
Japan's occupation of China in the 1930s and 1940s and others 
for revealing state secrets.\174\
    In response to media attempts to confirm the ban, GAPP 
officials denied its existence.\175\ Publishers, however, 
confirmed the ban.\176\ As punishment, authorities reportedly 
required the editors at one publisher to write self-criticisms 
and forego bonuses, and reduced the publisher's allotment of 
book numbers by 20 percent. Zhang Yihe, the daughter of a 
prominent rightist figure from the 1950s and whose book on the 
repression faced by classical opera stars in 1960s China was 
banned, sought to have a Chinese court overturn the action, but 
two courts in Beijing refused to accept her application.\177\

                Preventing Writers From Traveling Freely

    Chinese officials have also punished critics by restricting 
their travel. In February 2007, local police officials 
prevented 20 writers from attending an International PEN 
conference in Hong Kong by refusing to approve their travel 
documents or warning them not to go.\178\ The writers included 
Zhang Yihe and Zan Aizong, a journalist who was detained in 
2006 after he posted reports on 
foreign Web sites about detentions of Protestants protesting 
the destruction of a church in Zhejiang province.


                    POLITICAL PRISONER DEVELOPMENTS


    The case of Shi Tao, a Chinese journalist currently serving 
a 10-year sentence for ``illegally providing state secrets to a 
foreign organization,'' \179\ gained greater attention outside 
of China in 2007, as new information about his case became 
public. In 2004, Shi Tao reportedly e-mailed notes to a New 
York-based democracy Web site that were from a propaganda 
document restricting media coverage during the 15th anniversary 
of the 1989 Tiananmen democracy protests. Shi Tao's conviction 
in 2005 was based in part on information provided by Yahoo! 
China, then under the control of Yahoo!.\180\ In July 2007, the 
Dui Hua Foundation and Boxun released a copy of the request 
Chinese police made to Yahoo! China seeking information about 
Shi Tao's e-mail account. The release of the request brought to 
light new information about the basis of the request as 
communicated to Yahoo! China because it indicates that the 
request related specifically to a suspected ``illegal provision 
of state secrets'' case.\181\ In addition, Shi Tao's case 
remains significant because he exposed China's censorship of 
its media. As the global impact of events within China has 
grown, China's censorship of the media has become more 
important because the rest of the world relies on China's media 
to better understand such events. The Commission will continue 
to monitor and note future actions by Chinese officials to 
punish citizens for exposing censorship of China's media, in 
violation of these citizens' internationally protected right to 
freedom of expression.
    Another journalist, Zhao Yan, completed his three-year 
sentence for fraud and was released in September 2007.\182\ 
Authorities originally arrested Zhao, a Chinese researcher for 
the New York Times (NYT), for providing state secrets to 
foreigners.\183\ Sources said the ``state secret'' was 
information that former President and Communist Party General 
Secretary Jiang Zemin had offered to resign as Chairman of the 
Central Military Commission. Jiang's resignation was later 
reported in the official press. In August 2006, an intermediate 
court in Beijing sentenced Zhao to three years in prison on an 
unrelated fraud charge dating from 2001, but acquitted him of 
disclosing state secrets. Jerome Cohen, an expert on Chinese 
law and advisor to the NYT on Zhao's case, testified at a 
Commission hearing in September 2006 that Zhao was ``sentenced 
to three years in prison after another trial that can only be 
regarded as a farce, and after highly illegal--according to 
Chinese law--pre-trial detention, interrogation, et cetera.''
    In a positive sign, one journalist was released early while 
another received a sentence reduction. Local officials released 
former Xinhua journalist Gao Qinrong from a prison in Shanxi 
province in December 2006, 4 years before his 12-year sentence 
was to expire.\184\ Gao was sentenced in 1999 after he exposed 
corruption at an irrigation project in Yuncheng district, 
Shanxi province, that implicated top provincial officials. Xu 
Zerong received a nine-month sentence reduction on an unknown 
date and is due for release in September 2012.\185\ Xu, a 
senior research fellow at the Guangdong Academy of Social 
Sciences in Guangzhou city and head of an independent 
publishing company in Hong Kong, was sentenced to 13 years in 
prison in 2001 for revealing state secrets by copying and 
sending historical material dating from the 1950s about the 
Korean War to researchers overseas, and illegally operating a 
business by selling books and periodicals without officially 
issued book numbers.
    Additional information on these cases and others is 
available on the Commission's Political Prisoner Database [see 
Section I--Political Prisoner Database].

                                Endnotes

    \1\ CECC, 2005 Annual Report, 11 October 05, 103. According to a 
2005 State Council Information Office White Paper: ``The Chinese 
government requires its subordinate departments at all levels to make 
public their administrative affairs as far as possible, so as to 
enhance the transparency of government work and guarantee the people's 
right to know, participate in and supervise the work of the 
government.'' State Council Information Office, White Paper on 
Political Democracy, 19 October 05.
    \2\ CECC, 2003 Annual Report, 2 October 03, 61-62.
    \3\ ``China Effectively Promotes Administrative Transparency,'' 
People's Daily (Online), 23 March 07.
    \4\ For example, the Web site for the State Environmental 
Protection Administration contains links to relevant policies, laws, 
and regulations, a daily report on air quality in major cities, and 
news stories on the environment. State Environmental Protection 
Administration of China (Online), visited on August 28, 2007.
    \5\ ``China's Media Announcement Work and Construction of Media 
Spokesperson System Makes New Progress'' [Zhongguo xinwen fabu gongzuo 
he xinwen fayanren zhidu jianshe qude xin fazhan], China.com.cn 
(Online), 22 January 07; ``Supreme People's Court and High Courts Have 
Already All Established News Spokespersons'' [Zhongguo zuigaofayuan he 
gaojifayuan yi quanbu jianli xinwen fayanren], Xinhua, reprinted in 
People's Daily (Online), 12 September 06.
    \6\ See, e.g., Regulation on the Handling of Public Health 
Emergencies [Tufa gonggong weisheng shijian yingji tiaoli], issued 9 
May 03, art. 45; Ching-Ching Ni, ``China Toughens Stance on 
Environmental Protection,'' Los Angeles Times (Online), 22 February 06; 
Elaine Kurtenbach, ``Environmental Agency Says Disasters Must Be 
Reported Within One Hour,'' Associated Press, reprinted in South China 
Morning Post (Online), 7 February 06.
    \7\ Regulation on the Handling of Public Health Emergencies, arts. 
19, 25.
    \8\ CECC, 2003 Annual Report, 37; CECC, 2006 Annual Report, 20 
September 06, 102.
    \9\ Regulation of the People's Republic of China on the Public 
Disclosure of Government Information [Zhonghua renmin gongheguo zhengfu 
xinxi gongkai tiaoli], issued 5 April 07, art. 1.
    \10\ Ibid., arts. 10, 11, 12.
    \11\ Ibid., arts. 13, 20, 21, 22, 23, 24.
    \12\ Measures on Environmental Information Disclosure (Trial) 
[Huanjing xinxi gongkai banfa (shixing)], issued 11 April 07.
    \13\ Regulation on Public Disclosure of Government Information, 
art. 14; Measures on Environmental Information Disclosure (Trial), art. 
12.
    \14\ See, e.g., Provisions on the Protection of Secrets in News 
Publishing [Xinwen chuban baomi guiding], issued 13 June 92, art. 14: 
``Anyone wishing to provide a foreign news publishing organization a 
report or publication with contents that relate to the nation's 
government, economy, diplomacy, technology or military shall first 
apply to this agency or their supervising organ or unit for examination 
and approval.'' See also PRC Law on the Protection of State Secrets 
[Zhonghua renmin gongheguo baoshou guojia mimi fa], issued 5 September 
88, art. 8; Measures for the Implementation of the Law on the 
Protection of State Secrets [Zhonghua renmin gongheguo baoshou guojia 
mimi fa shishi banfa], issued 25 April 90, art. 4; and Article 1 of the 
Explanation of Certain Issues Regarding the Specific Laws to be Used in 
Adjudicating Cases of Stealing or Spying to Obtain, or Illegally 
Supplying, State Secrets or Intelligence for Foreigners [Guanyu shenli 
wei jingwai qiequ, citan, shoumai, feifa tigong guojia mimi, qingbao 
anjian juti yingyong falu ruogan wenti de jieshi], issued 20 November 
00, which states: ``The term `intelligence' in Article 111 of the 
Criminal Law refers to items which involve the security and interests 
of the nation, but which are not public or which, according to relevant 
regulations, should not be made public.'' See also ``Secrets Protection 
Knowledge'' [Baomi zhishi], posted on the Administration for the 
Protection of State Secrets of Guangdong province Web site, which 
states: `` `Relating to the security and interests of the nation,' 
means that, if a secret matter were known by people who do not 
currently know it, it would result in various kinds of harm to the 
security and interests of the nation.'' In September 2003, the 
Guangzhou Daily published a warning to readers that everyone from 
Internet users to garbage collectors can run afoul of China's state 
secrets legislation. ``If a Nanny Can Disclose State Secrets, Then 
Average Citizens Should Raise Their Awareness of Preserving Secrets'' 
[Baomu jingran xielou guojia jimi baixing yexu tigao baomi yishi], 
People's Daily (Online), 5 September 03.
    \15\ Regulations on the Specific Scope of State Secrets in 
Environmental Protection Work, issued 28 December 04, art. 2; Human 
Rights in China (Online), ``State Secrets: China's Legal Labyrinth,'' 
June 2007, 174.
    \16\ Ye Doudou and Duan Hongqing, ``How Wide Is the Door to Chinese 
Governments' Information Disclosure,'' Caijing (Online), 2 May 07; 
``China Issues Landmark Decree To Encourage Gov't Transparency,'' 
Xinhua (Online), 24 April 07.
    \17\ Human Rights in China, ``State Secrets: China's Legal 
Labyrinth,'' 51.
    \18\ Committee to Protect Journalists (Online), ``Falling Short, As 
the 2008 Olympics Approach, China Falters on Press Freedom,'' August 
2007, 17; ``Shanghai Journalist Sues Municipal Authorities for Refusing 
Interviews'' [Caifang zao jujue shanghai jizhe qisu shi guihua ju xinxi 
bu gongkai], Xinhua (Online), 2 June 06.
    \19\ Ibid.
    \20\ PRC Emergency Response Law, enacted 30 August 07, art. 53.
    \21\ CECC, 2006 Annual Report, 20.
    \22\ ``China Adopts Emergency Response Law,'' People's Daily 
(Online), 30 August 07.
    \23\ PRC Emergency Response Law, art. 54.
    \24\ Ibid., art. 65.
    \25\ The South China Morning Post quoted one Shanghai journalist as 
saying, ``Who gets to define what false information is? It's still up 
to the government. They can still do whatever they want. As long as the 
system stays the same, I can't imagine any major improvement.'' Ting 
Shi, ``Journalists Welcome Revision of Rules on Reporting 
Emergencies,'' South China Morning Post (Online), 26 June 07.
    \26\ ``Li Changqing Gets Three Years Imprisonment for Reporting 
Disease Outbreak,'' CECC Human Rights and Rule of Law Update, February 
2006, 15-16.
    \27\ PRC Public Security Administration Punishment Law, enacted 28 
August 05, art. 25. See, e.g., Yan Lieshan, ``Xin Yanhua's Luck and the 
Bad Fortune of the Three Xinyi Netizens'' [Xin Yanhua de jiaoxing he 
xinyi sanwangmin de buxing], Southern Metropolitan Daily (Online), 12 
July 07; and Zhan Jiang, ``Selectively Taking Citizens' Text Messages 
Out of Context Violates Freedom of Communication'' [Suiyi jiequ gongmin 
duanxin qinfan tongxin ziyou], Southern Daily (Online), 27 July 07.
    \28\ Yu Wei, ``Accused of Spreading Rumors While Participating in 
Discussion Over Rainstorm, 23 Year Old Female Jinan Internet User Who 
Posted Is Detained'' [Canyu bayou taolun bei zhi sanbu yaoyan jinan 23 
sui nuwangyou gentie bei ju], Southern Metropolitan Daily (Online), 25 
July 07.
    \29\ CECC, 2003 Annual Report, 64.
    \30\ Supreme People's Court Several Opinions on Strengthening Open 
Adjudication Work of the People's Courts [Zui gao renmin fayuan guanyu 
jiaqiang renmin fayuan shenpan gongkai gongzuo de ruogan yijian], 
issued 4 June 07, arts. 5, 15.
    \31\ Ibid., art. 22.
    \32\ Ibid., art. 3.
    \33\ ``Supreme People's Court Clarifies `Restricted Area' for 
People's Court News Publishing Work'' [Zuigaofayuan minque renminfayuan 
xinwen fabu gongzuo ``jinqu''], Xinhua (Online), 13 September 06. For a 
discussion of the competing roles that the media and the courts play 
for the Party, and the media's influence over China's courts and legal 
development, see Benjamin L. Liebman, ``Watchdog or Demagogue? The 
Media in the Chinese Legal System,'' 105 Colum. L. Rev. 1, 7 (2005).
    \34\ International Covenant on Civil and Political Rights, adopted 
by General Assembly resolution 2200A(XXI) of 16 December 66, entry into 
force 23 March 76 [hereinafter ICCPR]. China has signed, but has not 
yet ratified, the ICCPR. The Chinese government has committed itself to 
ratifying, and thus bringing its laws into conformity with, the ICCPR, 
and reaffirmed its commitment as recently as April 13, 2006, in its 
application for membership in the UN Human Rights Council. China's top 
leaders have previously stated on three separate occasions that they 
are preparing for ratification of the ICCPR, including in a September 
6, 2005, statement by Politburo member and State Councilor Luo Gan at 
the 22nd World Congress on Law, in statements by Chinese Premier Wen 
Jiabao during his May 2005 Europe tour, and in a January 27, 2004, 
speech by Chinese President Hu Jintao before the French National 
Assembly.
    Article 19 of the ICCPR states: ``1. Everyone shall have the right 
to hold opinions without interference. 2. Everyone shall have the right 
to freedom of expression; this right shall include freedom to seek, 
receive and impart information and ideas of all kinds, regardless of 
frontiers, either orally, in writing or in print, in the form of art, 
or through any other media of his choice.''
    \35\ Universal Declaration of Human Rights, adopted and proclaimed 
by General Assembly resolution 217A(III) of 10 December 48 [hereinafter 
UDHR]. Article 19 of the UDHR states: ``Everyone has the right to 
freedom of opinion and expression; this right includes freedom to hold 
opinions without interference and to seek, receive and impart 
information and ideas through any media and regardless of frontiers.''
    \36\ PRC Constitution, art. 35. Article 35 of China's Constitution 
states: ``Citizens of the People's Republic of China enjoy freedom of 
speech, of the press, of assembly, of association, of procession and of 
demonstration.''
    \37\ This language is found in Article 19 of the ICCPR. Article 29 
of the UDHR states the following: ``everyone shall be subject only to 
such limitations as are determined by law solely for the purpose of 
securing due recognition and respect for the rights and freedoms of 
others and of meeting the just requirements of morality, public order 
and the general welfare in a democratic society.''
    \38\ Ashley Esarey, ``Speak No Evil, Mass Media Controls in 
Contemporary China,'' Freedom House, February 2006, 3-4.
    \39\ Article 11(2) of the Regulations on the Administration of 
Publishing states that publishing work units must have a sponsoring 
work unit and a managing work unit recognized by the State Council's 
publishing administration agency. The ``sponsoring work unit'' must be 
a government agency of a relatively high level, and the publishing work 
unit must answer to its sponsoring work unit and managing work unit. 
Circular Regarding Issuance of the ``Temporary Provisions on the 
Functions of the Sponsoring Work Unit and the Managing Work Unit for 
Publishing Work Units'' [Guanyu fabu ``Guanyu chuban danwei de zhuban 
danwei he zhuguan danwei zhize de zanxing guiding'' de tongzhi], issued 
29 June 93, arts. 5-6; Regulations on the Administration of Publishing 
[Chuban guanli tiaoli], issued 25 December 01, art. 11(2).
    \40\ Measures for the Administration of Journalist Accreditation 
Cards [Xinwen jizhezheng guanli banfa], issued 10 January 05; Measures 
for the Administration of News Bureaus [Baoshejizhezhan guanli banfa], 
issued 10 January 05; Interim Provisions for the Administration of 
Those Employed as News Reporters and Editors [Guanyu xinwen caibian 
renyuan congye guanli de guiding (shixing)], issued 22 March 05; 
Interim Implementation Rules for the Administration of Those Employed 
as Radio and Television News Reporters and Editors [Guangdianzongju 
yinfa ``guangbo yingshi xinwen caipian renyuan congye guanli de shishi 
fangan (shixing) de tongzhi''], issued 1 April 05. GAPP has used its 
licensing authority to punish journalists for their reporting. In 
September 2006, GAPP revoked the license of Zan Aizong, a journalist 
who was detained for one week in August 2006 after he posted reports on 
foreign Web sites about detentions of Protestants who were protesting 
the destruction of a church in Xiaoshan city, Nanjing province. 
``September 17-21, 2006'' [2006 nian 9 yue 17 ri -- 9 yue 21 ri], 
Mediainchina.org.cn, 27 September 06. In March 2007, police in the city 
of Nanjing reportedly harassed a reporter for the U.S.-based news Web 
site Boxun, accusing him of working for an illegal news outlet and 
failing to have a journalist license. Committee to Protect Journalists 
(Online), ``China Reporter Arrested Following Months of Police 
Harassment,'' 4 June 07.
    \41\ Liebman, ``Watchdog or Demagogue?,'' 18-20.
    \42\ CECC, 2004 Annual Report, 5 October 04, 47; CECC, 2005 Annual 
Report, 56-57.
    \43\ Provisions on the Protection of Secrets in News Publishing. 
For example, in April 2003, two editors at the Xinhua news agency were 
fired for publishing a news report about SARS that had been classified 
as secret. ``Two Chinese Editors Sacked over Confidential SARS 
Document,'' South China Morning Post, 29 April 2003.
    \44\ Committee to Protect Journalists, ``Falling Short,'' 25.
    \45\ See, e.g., CECC, 2004 Annual Report, 48; and Andrew Batson, 
Geoffrey Fowler, and Juying Qin, ``China Magazine Is Pulled,'' Wall 
Street Journal (Online), 9 March 07.
    \46\ CECC, 2004 Annual Report, 47; CECC, 2005 Annual Report, 56-57.
    \47\ ``Hu Jintao Delivers Important Remarks at National Meeting of 
Propaganda Department Directors'' [Hu Jintao zai quanguo xuanchuan 
buzhang huiyi shang fabiao zhongyao jianghua], Xinhua (Online), 12 
January 01.
    \48\ ``Party Uses Journalists, Artists, Academics To Promote 
`Harmonious Society','' CECC China Human Rights and Rule of Law Update, 
December 2006, 10. Following the plenum, top officials such as Li 
Changchun, a Politburo member, and Liu Yunshan, a top Party official 
and Director of the Central Propaganda Department, told journalists 
that their ``foremost duty is to study, publicize, and carry out'' the 
spirit of the sixth plenum and the important statements of President Hu 
to unify the thoughts of the whole party and the whole nation, and to 
be ``loyal to the Party's news work and protect the interests of the 
Party and the people.'' The duty of journalists to be caretakers of the 
Party's ideology is also embodied in formal regulations. See, e.g., the 
Interim Provisions on the Administration of Those Employed as News 
Reporters and Editors issued jointly by the General Administration of 
Press and Publication, the Central Propaganda Department, and the State 
Administration of Radio, Film and Television in 2005, which provides 
that reporters and editors must be ``guided by Marxism, Leninism, Mao 
Zedong Thought, Deng Xiaoping Theory, and the important ideology of the 
`Three Represents', support the leadership of the Chinese Communist 
Party, and support the socialist system'' and ``protect the interest of 
the Party and the government.'' Interim Provisions on the 
Administration of Those Employed as News Reporters and Editors, art. 1. 
One Chinese court has recently held that for purposes of China's 
criminal law, journalists at state-owned newspapers are state 
functionaries. ``Former China Business Times Reporter Meng Huaihu Final 
Sentence of 12 Years for Extortion'' [Zhonghua gongshang shibao jizhe 
Meng Huaihu zhongshen yi shouhui zui panxing 12 nian], Xinhua (Online), 
19 April 07.
    \49\ ``Liu Yunshan: Begin Contruction of a Good Ideological and 
Public Opinion Atmosphere for the 17th Party Congress'' [Liu Yunshan: 
wei shiqi da yingzao lianghao sixiang yulun qifen], Xinhua (Online), 9 
July 07; ``Perform Well News Publishing Work, To Create a Positive 
Cultural Environment for the 17th Party Congress'' [Zuohao xinwen 
chuban gongzuo wei shiqi da zhaokai yingzao lianghao wenhua huanjing], 
Xinhua (Online), 16 July 07; Edward Cody, ``Broadcast Media in China 
Put On Notice,'' Washington Post (Online), 27 February 07; Cary Huang, 
``Party Introduces New Censorship Rule,'' South China Morning Post 
(Online), 16 January 07.
    \50\ ``China To Show Only `Ethically Inspiring TV Series' in Prime 
Time From Next Month,'' People's Daily (Online), 22 January 07.
    \51\ Gordon Fairclough, ``Finally Rescued, China's `Slaves' Detail 
Their Plight,'' Wall Street Journal (Online), 19 June 07; ``1,340 
Rescued from Forced Labor,'' Xinhua (Online), 13 August 07.
    \52\ Cary Huang, ``Magazine Censured for Political `Defiance','' 
South China Morning Post (Online), 30 November 06. After further 
investigation, propaganda officials docked the magazine six points 
under a 12-point punishment system imposed in January 2007 (12 points 
meaning closure of the magazine) and issued a serious internal warning 
to the executive editor. Cary Huang, ``Editor and Magazine Disciplined 
by Party,'' South China Morning Post (Online), 26 April 07.
    \53\ Kristine Kwok, ``Two Newspaper Staff Suspended for `June 4' 
Advert,'' South China Morning Post (Online), 8 June 07.
    \54\ Batson, Fowler, and Qin, ``China Magazine Is Pulled.''
    \55\ CECC, 2006 Annual Report, 102.
    \56\ ``Shanghai's Top Leader Removed Over Scandal Involving Alleged 
Misuse of City Pension Funds,'' Associated Press (Online), 25 September 
06; James T. Areddy, ``China Warns of Broader Corruption Probe,'' Wall 
Street Journal (Online), 27 September 06.
    \57\ ``Media Told To Downplay Demise of Party Boss,'' South China 
Morning Post (Online), 27 September 06.
    \58\ ``Shanghai City Government Press Conferences Come Back Online, 
No Mention of Chen Liangyu'' [Shanghai shi zhengfu xinwen fabuhui 
chongxin dengchang bu ti Chen Liangyu], Boxun (Online), 4 November 06.
    \59\ Keith Bradsher, ``China Tells Little About Illness That Kills 
Pigs, Officials Say,'' New York Times (Online), 8 May 07.
    \60\ Ibid.
    \61\ Richard McGregor, ``750,000 A Year Killed by Chinese 
Pollution,'' Financial Times (Online), 2 July 07. The article also said 
that the World Bank removed a map showing the areas with the most 
deaths because it was too sensitive.
    \62\ Ibid.
    \63\ ``China Denies Requiring WB to Delete Environmental Data from 
Report,'' Xinhua, reprinted in People's Daily (Online), 5 July 07.
    \64\ ``Censors Clamp Down on Food Safety Reports,'' South China 
Morning Post (Online), 31 July 07.
    \65\ For example, in March 2007, State Council Information Office 
(SCIO) Director Cai Wu said that ``leaders should not be afraid of 
reporters.'' ``Cai Wu: Some Leaders Fear Facing Reporters Because They 
Worry They Will Lose Their Official Posts'' [Cai Wu: moxie lingdao pa 
jian jizhe shi danxin diudiao ziji de wushamao], Chinanews.com, 9 March 
07. In January 2007, SCIO's vice-minister, speaking about foreign 
journalists, said that the Chinese government was moving away from its 
practice of ``managing the media'' and was preparing to ``serve'' and 
not shy away from reporters. ``China Gov'ts `Serve Media, Not Manage 
Them,' '' China Daily (Online), 4 January 07.
    \66\ ``Official: Transparency Key to Public Faith,'' China Daily 
(Online), 29 July 07.
    \67\ ``Anhui Requires Journalists To Write `Positive' Reports for 
Promotion,'' CECC China Human Rights and Rule of Law Update, December 
2006, 18-19
    \68\ ``Linking Professional Evaluations to Positive Reporting Is 
Absurd'' [Zhicheng pingding yu zhengmian baodao guagou tai huangtang], 
Southern Metropolitan Daily (Online), 27 October 06.
    \69\ ``Anhui Requires Journalists To Write `Positive' Reports for 
Promotion,'' CECC China Human Rights and Rule of Law Update, December 
2006, 18-19
    \70\ In 2001, when the Chinese government was bidding to host the 
2008 Summer Olympic Games, Wang Wei, then the Secretary-General of the 
Beijing Bid Committee, said that the government would give the news 
media ``complete freedom'' to report on China and that the guarantee 
had been made in China's bid documents. ``Journalists To Write Whatever 
They Like if Beijing Holds 2008 Games,'' China Daily (Online), 12 July 
01.
    \71\ Regulations on Reporting Activities in China by Foreign 
Journalists During the Beijing Olympic Games and the Preparatory Period 
[Beijing auyunhui ji qi choubei qijian waiguo jizhe zai hua caifang 
guiding], issued 1 December 06.
    \72\ The regulations expire one month after Beijing hosts the 13th 
Paralympic Games. The Paralympic Games follow the 2008 Summer Olympics 
Games, which run from August 8 to August 24, 2008. ``Paralympic Games 
Schedules Set,'' China Daily (Online), 22 May 06.
    \73\ In a survey of 163 journalists conducted by the Foreign 
Correspondents Club of China and released in August 2007, 43 percent of 
the respondents said that China's reporting environment had improved, 
although 95 percent said reporting conditions still did not meet what 
they considered to be international standards. Respondents reported 157 
incidents of interference, including 57 instances of intimidation of 
local citizens who spoke with foreign reporters. Foreign Correspondents 
Club of China, ``Foreign Correspondents: China Yet To Fulfill Olympic 
Pledge of Free Media Coverage, Harassment Still Common,'' 1 August 07. 
A report by Human Rights Watch also found that government and state 
security officials, as well as unidentifiable thugs, were harassing, 
intimidating, and detaining foreign journalists, but that some foreign 
reporters also said that the new rules ``significantly widened access 
to sources and topics previously taboo, such as access to certain 
prominent political dissidents and to villages with public health 
emergencies.'' Human Rights Watch (Online), ``Beijing 2008 China's 
Olympian Human Rights Challenges,'' 10 August 07.
    \74\ Foreign Correspondents Club of China, ``China Yet To Fulfill 
Olympic Pledge of Free Media Coverage.''
    \75\ Ibid. In May 2007, a foreign ministry official reportedly 
summoned two foreign journalists to the ministry to reprimand them for 
stories they had written about the TAR. Reporters Without Borders 
(Online), ``Two Foreign Reporters Summoned and Warned About Tibet 
Stories,'' 25 May 07. The new regulations do not contain any exception 
or carve-out for Tibet or any other region of China. Foreign ministry 
officials, however, have indicated orally that existing regulations 
applicable to Tibet, such as special permit requirements, remain in 
effect. In a February 13, 2007, press conference Foreign Ministry 
Spokeswoman Jiang Yu said the following about the new rule's 
applicability to Tibet: ``The new Regulations should be abided by 
generally when foreign journalists conduct reporting activities in 
Tibet and elsewhere. In the meantime, due to restraints in natural 
conditions and reception capabilities, Tibetan local authorities have 
some regulations for foreigners' access there, which should be abided 
by. Please contact the local foreign affairs office for conducting 
reporting activities in Tibet.'' Ministry of Foreign Affairs (Online), 
``Foreign Ministry Spokeswoman Jiang Yu's Regular Press Conference on 
13 February 2007,'' 14 February 07 (English translation); Ministry of 
Foreign Affairs (Online), ``Foreign Ministry Spokeswoman Jiang Yu's 
Regular Press Conference on 13 February 2007'' [2007 nian 2 yue 13 ri 
waijiaobu fayanren Jiang Yu juxing liexing jizhehui], 13 February 07 
(Chinese).
    \76\ Human Rights Watch, ``Beijing 2008 China's Olympian Human 
Rights Challenges.''
    \77\ In March 2007, local officials in Hunan province detained two 
BBC journalists covering a riot, telling them the rules apply only to 
Olympics coverage. Reporters Without Borders (Online), ``Disturbing 
Lapses in Application of New Rules for Foreign Media,'' 22 March 07. 
Foreign ministry and State Council officials have publicly stated that 
the rules cover not only the Olympics but also politics, economy, 
society, and culture in China. ``Journalists Promised Wide Access in 
2008,'' China Daily (Online), 2 December 06; ``Foreign Journalists 
`Welcome in China','' China Daily (Online), 29 December 06. The 
``Service Guide for Overseas Media Coverage of the Beijing Olympic 
Games and the Preparatory Period'' issued by the Beijing Organizing 
Committee for the Games of the XXIX Olympiad state that under the rules 
``[f]oreign journalists can carry out reporting activities not only on 
the Beijing Olympic Games and the preparatory period, but also on 
politics, economy, society, and culture of China.'' Beijing Organizing 
Committee for the Games of the XXIX Olympiad, ``Service Guide for 
Overseas Media Coverage of the Beijing Olympic Games and the 
Preparatory Period,'' 3.
    \78\ Christopher Bodeen, ``China Media Seen as Corrupt, But Experts 
Blame Communist Controls for Skewing System,'' Associated Press 
(Online), 31 January 07.
    \79\ ``Fraudster Who Impersonated People's Daily Deputy Editor-in-
Chief Liu Yonghong Sentenced to Life'' [Maochong renmin ribao fu 
zongbianji zha pian zhe Liu Yonghong bei pan wuqi tuxing], People's 
Daily (Online), 9 May 07.
    \80\ Edward Cody, ``Blackmailing By Journalists in China Seen as 
`Frequent','' Washington Post (Online), 25 January 07; Winny Wang, 
``China To Improve Supervision of Reporters,'' Shanghai Daily (Online), 
9 July 07.
    \81\ The Commission noted in its 2004 Annual Report that the media 
in China often focus on the ethical problems within its own industry. 
CECC, 2004 Annual Report, 48.
    \82\ Notice Regarding Further Improving Standards for Supervision 
of Press Journalist's Stations [Guanyu jin yibu guifan baoshe jizhezhan 
guanli de tongzhi], issued 18 March 07.
    \83\ ``China Targets `False News' Ahead of Party's Congress,'' 
Associated Press (Online), 16 August 07; ``Special National Operation 
Launched To Resolutely Rid News Publishing of the `Four Dangers''' 
[Quanguo kaizhan zhuanxiang xingdong jianjue qingchu xinwen chuban ``si 
hai''], People's Daily (Online), 15 August 07.
    \84\ ``Hu Jintao: Increase the Building and Administration of 
Internet Culture with a Spirit of Innovation'' [Hu Jintao: yi chuangxin 
de jingshen jiqiang wangluo wenhua jianshe he guanli], Xinhua (Online), 
24 January 07; ``Hu Asks Officials To Better Cope With Internet,'' 
Xinhua (Online), 24 January 07.
    \85\ China Internet Network Information Center, 20th Statistical 
Survey on Internet Development in China, 18 July 07.
    \86\ ``Infocom Is `Vital' for China,'' Xinhua (Online), 27 April 
07.
    \87\ China Internet Network Information Center, 11th Statistical 
Survey on Internet Development in China, 15 January 03; China Internet 
Network Information Center, 20th Statistical Survey.
    \88\ ``China's Internet Conundrum,'' Podcast with Tim Wu, CNET 
News.com (Online), 1 June 07.
    \89\ ``Hu Jintao: Increase the Building and Administration of 
Internet Culture with a Spirit of Innovation,'' Xinhua. In his January 
2007 speech, President Hu Jintao also said it was important to 
``strengthen the battlefield position over ideology and public opinion 
on the Internet.''
    \90\ ``Build Up An Online Culture, Solidify Our Position Online'' 
[Jianshe wangluo wenhua gonggu wangshang zhendi], Guangming Daily, 
reprinted in Xinhua (Online), 19 June 07.
    \91\ This language is found in Article 19 of the ICCPR. Article 29 
of the UDHR states the following: ``everyone shall be subject only to 
such limitations as are determined by law solely for the purpose of 
securing due recognition and respect for the rights and freedoms of 
others and of meeting the just requirements of morality, public order 
and the general welfare in a democratic society.''
    \92\ Ariana Eunjung Cha, ``In China, Stern Treatment for Young 
Internet `Addicts','' Washington Post (Online), 22 February 07; ``New 
Measures Come Out: Excessive Senders of Junk Mail To Be Recorded on 
`Black List''' [Xin cuoshi chutai lanfa lese youjian jiang jiru ``hei 
mingdan''], Xinhua (Online), 1 March 06; ``Authorities Crack Down on 
Internet Porn,'' Agence France-Press, reprinted in South China Morning 
Post (Online), 15 August 07; ``China's News Websites Vow To Clean Up 
the Internet,'' Xinhua, reprinted in China Daily (Online), 18 May 07.
    \93\ All commercial Web sites must obtain a government license. 
Measures for the Administration of Internet Information Services 
[Hulianwang xinxi fuwu guanli banfa], issued 20 September 00. All non-
commercial Web site operators must register. Registration 
Administration Measures for Non-Commercial Internet Information 
Services [Fei jingyingxing hulianwang xinxi fuwu bei'an guanli banfa], 
issued 28 January 05. Because the MII's registration system gives the 
government discretion to reject an application based on content (i.e., 
whether the Web site operator intends to post ``news,'' and if so, 
whether it is authorized to do so), it is qualitatively different from 
registration which all Web site operators must undertake with a domain 
registrar, and constitutes a de facto licensing scheme.
    \94\ Peter Ford, ``Why China Shut Down 18,401 Websites,'' Christian 
Science Monitor (Online), 25 September 07; ``MII Reports China's 
Government Has Met its Goals in Private Web Site Crackdown,'' CECC 
Human Rights and Rule of Law Update, September 2005, 5; ``Ministry of 
Information Industry: Web Sites That Fail to Register May Be Shut 
Down,'' CECC Human Rights and Rule of Law Update, June 2005, 3.
    \95\ Ford, ``Why China Shut Down 18,401 Websites.''
    \96\ ``Government Shuts Down Web Site; China Scholars and Activists 
Respond,'' CECC China Human Rights and Rule of Law Update, September 
2006, 12-13; ``Government Agencies Issue New Regulations Restricting 
News Reporting on the Internet,'' CECC China Human Rights and Rule of 
Law Update, November 2005, 4; Provisions on the Administration of 
Internet News Information Services [Hulianwang xinwen xinxi fuwu guanli 
guiding], issued 25 September 05.
    \97\ OpenNet Initiative (Online), ``OpenNet Initiative: Bulletin 
011-Analysis of China's Non-Commercial Web Site Registration 
Regulation,'' 22 February 06. The Opennet Initiative comprises 
researchers at the Citizen Lab at the Munk Centre for International 
Studies, University of Toronto, Berkman Center for Internet & Society 
at Harvard Law School, the Advanced Network Research Group at the 
Cambridge Security Programme, University of Cambridge, and the Oxford 
Internet Institute, Oxford University.
    \98\ ``GAPP Drafts Supervision Regulation, Celebrity Magazines To 
Be Supervised'' [Xinwen chuban zongshu ni qicao guanli tiaoli mingren 
zazhi jiang shou jianguan], Shanghai Youth Daily, reprinted in Xinhua 
(Online), 23 April 07.
    \99\ OpenNet Initiative (Online), ``Internet Filtering in China in 
2004-2005: A Country Study,'' 14 April 05; China Internet Network 
Information Center, 20th Statistical Survey.
    \100\ Steven Schwankert, ``English Wikipedia Unblocked in China,'' 
IDG News Service (Online), 18 June 07; Simon Burns, ``Wikipedia Partly 
Unblocked in China,'' VNUnet (Online), 18 June 07.
    \101\ Juan Carlos Perez, ``Flickr Investigates Blocking of Images 
in China,'' IDG News Service (Online), 11 June 07.
    \102\ ``Clean Up Cyberspace,'' China Daily, reprinted in Xinhua 
(Online), 19 April 07.
    \103\ ``China's Law Enforcement Internet Database Set for 
Completion This Year,'' Xinhua, reprinted in People's Daily (Online), 
28 May 07.
    \104\ Ibid.
    \105\ CECC, 2006 Annual Report, 35.
    \106\ Measures for the Administration of Internet Information 
Services, arts. 14, 15, 16.
    \107\ ``Lawyer Pu Zhiqiang Sees 2 Blogs Closed Within 10 Days'' 
[Lushi Pu Zhiqiang shi tian nei liangge boke bei guan], Radio Free Asia 
(Online), 21 February 07.
    \108\ Regulations on the Administration of Business Sites of 
Internet Access Services [Hulianwang shangwang fuwu yingye changsuo 
guanli tiaoli], issued 29 September 02, arts. 19, 23; China Internet 
Network Information Center, 20th Statistical Survey.
    \109\ Bloggers are never truly anonymous because they can be traced 
back to an IP address. Jason Leow, ``Why China Relaxed Blogger 
Crackdown, Registration Plan Was Dropped In Face of Tech-Industry 
Protests,'' Wall Street Journal (Online), 17 May 07.
    \110\ See, e.g., ``Real Name Registration in Full Bloom, `Lilac' 
Withers and Falls: To Post on Harbin Institute of Technology's BBS 
Requires Information About Full Name and School Department'' 
[Shimingzhi shengkai zidingxiang diaoxie hagongda BBS fatie xuyao 
xingming he yuanxi xinxi], Southern Metropolitan Daily, 13 July 07.
    \111\ Jason Leow, ``China Eases Real-Name Blog Effort,'' Wall 
Street Journal (Online), 23 May 07.
    \112\ The Internet in China-A Tool of Freedom or Suppression?, 
Joint Hearing of the Subcommittee on Africa, Global Human Rights, and 
International Operations, and the Subcommittee on Asia and the Pacific, 
Committee on International Relations, U.S. House of Representatives, 15 
February 06, Testimony of Michael Callahan, Senior Vice President and 
General Counsel, Yahoo! Inc.; ``Congressional Committee to Investigate 
Disparity Between Documents and Hearing Testimony by Yahoo!,'' House 
Foreign Affairs Committee (Online), 3 August 07.
    \113\ Internet Society of China (Online), ``Internet Society of 
China Formally Issues `Blogging Services Self-Discipline Pledge' To 
Promote Orderly Development of Blogging Services'' [Zhongguo hulianwang 
xiehui zhengshi fabu ``boke fuwu zilu gongyue,'' cujin boke fuwu youxu 
fazhan], 21 August 07.
    \114\ Reporters Without Borders (Online), ``Yahoo! and MSN Comment 
on `Self-Disciplinary Pledge','' 28 August 07.
    \115\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 105.
    \116\ UN Working Group on Arbitrary Detention, Report of the 
Working Group on Arbitrary Detention, Mission to China, Addendum, 29 
December 04, para. 78.
    \117\ ``Authorities Sentence Guo Qizhen to Four Years in Prison for 
Online Essays,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 5-6.
    \118\ ``Shandong Court Sentences Internet Essayist Li Jianping to 
Two Years' Imprisonment,'' CECC Human Rights and Rule of Law Update, 
December 2006, 12-13.
    \119\ ``Well-Known Online Article Writer Zhang Jianhong Sentenced 
for Inciting Subversion of State Power'' [Wangshang zhuanwen da Zhang 
Jianhong shandong dianfu guojia zhengquan an xuanpan], Xinhua, 
reprinted in Phoenix Television (Online), 20 March 07.
    \120\ Independent Chinese Pen Center (Online), ``ICPC Statement 
Regarding Protest of Member Yan Zhengxue's Sentence'' [Duli zhongwen 
bihui guanyu huiyuan Yan Zhengxue bei panxin de kangyi shengming],'' 19 
April 07.
    \121\ ``China Jails Internet Writer for Subversion, Disbars 
Lawyer,'' Reuters (Online), 16 August 07.
    \122\ Independent Chinese Pen Center, ``ICPC Statement Regarding 
Protest of Member Yan Zhengxue's Sentence''; ``Overseas Service Center 
of Chinese Democracy Party Calls for Attention to Case of China 
Democracy Party's Chen Shuqing and Li Hong (Zhang Jianghong)'' 
[Zhongguo minzhu dang haiwai fuwu zhongxin huyu guanzhu Chen Shuqing, 
Li Hong (Zhang Jianhong) zhongguo minzhu dang yi an], Radio Free Asia 
(Online), 19 September 06.
    \123\ Gao Shan, ``Zhejiang China Democracy Party Member Chi Jianwei 
Sentenced to 3 Years in Prison'' [Zhejiang sheng zhongguo minzhu dang 
chengyuan chi jianwei bei pan xing 3 nian tuxing], Radio Free Asia 
(Online), 27 March 07.
    \124\ Chinese Human Rights Defenders (Online), ``Pro-Democracy 
Activist Detained for `Inciting Subversion' Government Must End 
Criminalization of Free Speech,'' 25 August 07.
    \125\ ``Lawyer for Journalists and Cyber-Dissidents Loses 
License,'' Reporters Without Borders (Online), 6 August 07.
    \126\ ``Authorities Arrest and Imprison Writers for Online Essays 
Criticizing Government,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 4-5.
    \127\ Chinese Human Rights Defenders (Online), ``Yang Chunlin 
Accused of `Subversion Against the State Power','' 4 September 07; 
``Refused Meeting With Lawyer, Yang Chunlin's Sister Reveals Police 
Intimidation'' [Ju lushi huijian Yang Chunlin mei jie jingfang konghe], 
Epoch Times, 17 September 07.
    \128\ See, e.g., ``Authorities Sentence Guo Qizhen to Four Years in 
Prison for Online Essays,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 5-6 and ``Shandong Court Sentences Internet 
Essayist Li Jianping to Two Years' Imprisonment,'' CECC Human Rights 
and Rule of Law Update, December 2006, 12-13.
    \129\ China Information Center (Online), ``Administrative Penalty 
Decision for Zhang Jianping'' [Xingzheng chufa jueding shu], 17 April 
07. In punishing Zhang, officials relied on the Measures for the 
Administration of Security Protection of Computer Information Networks 
with International Interconnections, which prohibit individuals from 
using the Internet to look up ``information that incites the subversion 
of state power and the overthrow of the socialist political system.'' 
Measures for the Administration of Security Protection of Computer 
Information Networks with International Interconnections [Jisuanji 
xinxi wangluo guoji lianwang anquan baohu guanli banfa], 11 December 
97. Zhang filed an administrative appeal with the Changzhou PSB. The 
PSB denied the appeal on June 6 and noted that there was evidence that 
Zhang had browsed certain hostile foreign Web sites, and used 
censorship circumvention tactics. ``Changzhou Public Security 
Administrative Reconsideration Decision Calls Tianwang A Hostile 
Foreign Web Site'' [Changzhou gongan xingzheng fuyi cheng tianwang 
jingwai didui wangzhan], 64tianwang.com, 6 June 07.
    \130\ Xiao Qiang, ``China Censors Internet Users With Site Bans, 
Cartoon Cop Spies,'' San Francisco Chronicle (Online), 23 September 07.
    \131\ China Internet Network Information Center, 20th Statistical 
Survey.
    \132\ ``China Eases Off Proposal for Real-Name Registration,'' 
Xinhua (Online), 22 May 07.
    \133\ Access to Information in the People's Republic of China, 
Hearing of the U.S.-China Economic and Security Review Commission, 31 
July 07, Written Statement Submitted by Ashley Esarey, Luce Fellow of 
Asian Studies and Assistant Professor of Comparative Politics, 
Middlebury College.
    \134\ Edward Cody, ``China's Muckrakers for Hire Deliver Exposes 
With Impact,'' Washington Post (Online), 2 May 07; Edward Cody, ``Text 
Messages Giving Voice to Chinese,'' Washington Post (Online), 28 June 
07. Because they post on the Internet, however, such journalists are 
still subject to China's censorship of that medium.
    \135\ Clay Chandler, ``Is China Emerging from a Media Ice Age,'' 
Fortune (Online), 1 June 07.
    \136\ ``500 Mln Cellphone Users Mark China's 20th Anniversary of 
Mobile,'' Xinhua, reprinted in People's Daily (Online), 20 July 07.
    \137\ China Mobile Limited (Online), visited on September 27, 2007.
    \138\ Mitchell Landsberg, ``Chinese Activists Turn to Cellphones,'' 
Los Angeles Times (Online), 1 June 07.
    \139\ Louisa Lim, ``China To Censor Text Message,'' BBC (Online), 2 
July 04. Until recently, pre-paid phones could be purchased 
anonymously. In 2005, in an apparent move to curb fraud and spamming, 
mostly committed via text message, the government began to require real 
name registration of cell phones. ``China Cracking Down on Cell Phone 
Fraud, Spam,'' Reuters (Online), 28 December 05. This was aimed mostly 
at pre-paid phones, which in 2006 represented more than half of all 
mobile phones. It is unclear how widely enforced this requirement is.
    \140\ ``Xiamen Suspends Controversial Chemical Project,'' Xinhua 
(Online), 30 May 07.
    \141\ Ibid.
    \142\ Cody, ``Text Messages Giving Voice to Chinese.''
    \143\ Landsberg, ``Chinese Activists Turn to Cellphones.''
    \144\ Cody, ``Text Messages Giving Voice to Chinese.''
    \145\ ``Xiamen Suspends Controversial Chemical Project,'' Xinhua.
    \146\ Many around China followed the protests in real time through 
written reports and cell phone photos posted on blogs. Some sites were 
blocked but many of the reports had already been forwarded to other 
sites around China before censors could react. Cody, ``Text Messages 
Giving Voice to Chinese.''
    \147\ Zhu Hongjun, ``She Started the Storm Over the Shanxi Illegal 
Brick Kilns'' [Shanxi hei zhuanyao fengbao bei ta dianran], Southern 
Weekend (Online), 12 July 07.
    \148\ Fairclough, ``Finally Rescued, China's `Slaves' Detail Their 
Plight.''
    \149\ ``China's Internet Justice,'' Wall Street Journal (Online), 
21 June 07; Josephine Ma, ``Beijing's Damage Control Moves Behind the 
Scenes,'' South China Morning Post (Online), 10 July 07; Josephine Ma, 
``Top Official Plays Down Scale of Kiln Slavery,'' South China Morning 
Post (Online), 14 August 07.
    \150\ Howard French, ``In China, Fight Over Development Creates a 
Star,'' New York Times (Online), 26 March 07.
    \151\ ``Blogger Also Comes to Report on the `Awesome Nail House''' 
[Boke ye lai baodao ``zui niu dingzi hu''], Southern Metropolitan Daily 
(Online), 30 March 07.
    \152\ Ma, ``Beijing's Damage Control Moves Behind the Scenes''; 
Geoffrey York, ``The Coolest Nail House in History,'' Globe and Mail 
(Online), 29 March 07.
    \153\ ``Draft Xiamen Regulation of Online Forums Abolishes 
Anonymous Comment Function'' [Xiamen ni guiding luntan quxiao niming 
fatie gongneng], Taihai Wang, reprinted in Sina.com, 4 July 07.
    \154\ Regulations on the Administration of Publishing.
    \155\ Although no absolute international standard prescribes what 
constitutes freedom of the press, international human rights standards 
set forth a minimum prerequisite: no legal system can be said to 
respect freedom of the press if it subjects the print media to any 
prior restraint through a licensing scheme. In 2003, the UN Special 
Rapporteur on Freedom of Opinion and Expression, the Organization for 
Security and Cooperation in Europe (OSCE) Representative on Freedom of 
the Media, and the Organization of American States (OAS) Special 
Rapporteur on Freedom of Expression issued a joint declaration saying 
that licensing schemes are unnecessary and subject to abuse. The UN 
Human Rights Committee ruled in March 2000, that a licensing scheme in 
Belarus similar to China's violated Article 19 because the government 
of Belarus had failed to show how the licensing requirements were 
necessary to protect any of the legitimate purposes set forth in 
Article 19. The Commission has recommended in its annual reports that 
China eliminate this prior restraint on publishing.
    \156\ Notice Regarding Prohibiting the Transmission of Harmful 
Information and Further Regulating Publishing Order [Guanyu jinzhi 
zhuanbo youhai xinxi jinyibu guifan chuban zhixu de tongzhi], issued 5 
November 01: ``No one may establish an entity whose primary purpose is 
to transmit news information and engage in other news publishing 
activities without permission from the press and publication 
administration agency.''
    \157\ Circular Regarding Issuance of the ``Temporary Provisions on 
the Functions of the Sponsoring Work Unit and the Managing Work Unit 
for Publishing Work Units'', arts. 5-6; Regulations on the 
Administration of Publishing, art. 11(2).
    \158\ Regulations on the Administration of Publishing, art. 29.
    \159\ Guangdong Press and Publication Administration (Online), 
``Responsible Person at the General Administration of Press and 
Publication Book Office Reports on the Previous Year's National Book 
Publishing Administration Work'' [Zongshu tushusi fuzeren tongbao 
qunian quanguo tushuchuban guanli gongzuo], 24 February 05 (saying that 
authorities should use the opinions provided when screening the 
selection of topics to determine the distribution of book numbers, 
because this ``reduces the risks relating to orientation'').
    \160\ ``Wen Jiabao: Pushing Forward Political Reform, Strengthening 
People's Supervision of the Government'' [Wen Jiabao: tuijin zhengzhi 
tizhi gaige jiaqiang renmin zhengfu de jiandu], China Court Network 
(Online), 16 March 07. Premier Wen also said that more public 
supervision of the government was needed.
    \161\ ``China's TV Watchdog Vows To Fight Corruption in TV Drama 
Censorship,'' Xinhua, reprinted in People's Daily (Online), 21 June 07.
    \162\ The move was intended to improve the quality of talent and 
combat commercially driven ``talent shows,'' but it also increases the 
government's control over artists and entertainers. ``If You Want To Be 
a Music or Movie Star, You'll Need Certification'' [Yao dang gexing 
yingxing xu xian chi zheng shang gang], Beijing News (Online), 19 April 
07.
    \163\ Hebei Administration of Press and Publication (Online), 
``GAPP Director Long Xinmin Comes to Our Province To Inspect Guidance 
Work'' [Guojia xinwen chuban zongshu shuzhang Long Xinmin dao wo sheng 
diaoyan zhidao gongzuo], 15 October 06.
    \164\ ``Party Uses Journalists, Artists, Academics To Promote 
`Harmonious Society','' CECC China Human Rights and Rule of Law Update, 
December 2006, 10.
    \165\ ``Long Xinmin: Publish Large Volume of Outstanding 
Publications To Serve Readers and as Favor to Masses'' [Long Xinmin: 
chuban dapi youxiu chuban wu fuwu duzhe hui ji qunzhong], People's 
Daily (Online), 28 March 07.
    \166\ ``Public Security Organs Capture 590 Million Illegal 
Publications of All Kinds Over Five Years'' [Gongan jiguan 5 nian 
shoujiao gelei feifa chubanwu 5.9 yi jian], Xinhua (Online), 29 March 
07.
    \167\ ``100 Day Anti-Piracy Action: 368 Business Licenses 
Rescinded'' [Fan daoban bairi xingdong: 368 jia danwei jingying xuke 
zheng bei diaoxiao], People's Daily (Online), 17 September 06.
    \168\ Ibid. Li Baozhong, head of GAPP's Market Supervision 
Department, said that ``compared to pornographic publications, the harm 
from these kinds of illegal news and economic publications is even 
greater. Lawbreakers follow their own prerogatives to edit and publish 
these publications, severely deviating from the correct news 
orientation.'' General Administration on Press and Publication 
(Online), ``Illegal Periodical `China New Observer' Investigated and 
Prosecuted'' [Feifa qikan ``zhongguo xin guancha'' bei chachu], 8 May 
07.
    \169\ General Administration on Press and Publication (Online), 
``Nationwide `Sweep Away Pornography, Strike Down Illegal Publications' 
Method: Three Major Points to Implement, Maintaining High Posture'' 
[Quanguo ``saohuang dafei''ban: shishi san da zhongdian baochi gaoya 
taishi], 27 February 07.
    \170\ ``In the First 3 Months of the Year, 36 Million Pieces of 
Illegal Publications of All Kinds Were Confiscated'' [Zhongguo jinnian 
qian 3 ge yue shoujiao gelei feifa chubanwu 3600 duo wan jian], Xinhua 
(Online), 14 April 07.
    \171\ ``Guangzhou College Students Self-Publish Newspaper and 
Magazine: Legality In Question'' [Guangzhou daxuesheng zi ban baozhi 
zazhi hefaxing shou zhiyi], People's Daily (Online), 20 June 07.
    \172\ Ibid.
    \173\ ``Eight Books Banned in Crackdown on Dissent,'' South China 
Morning Post (Online), 19 January 07.
    \174\ ``GAPP Director Clarifies That Regarding Reported Banning of 
`Past Stories of Peking Opera Stars' and Other Books: We Never Banned 
Even One Book'' [Zhongguo xinwen chuban zongshu chengqing ``lingren 
wangshi deng shu bei jin'': women yi ben shu dou mei chajin], 
Zaobao.com, 1 February 07; ``Eight Books Banned in Crackdown On 
Dissent,'' South China Morning Post.
    \175\ ``GAPP: Investigated and Found No Book Ban, Zhang Yihe 
Counters That Officials Don't Understand When To Admit Error'' 
[Chubanzongshu: you chachu wu jin shu Zhang Yihe bochi guanyuan bu dong 
ren cuo], Ming Pao (Online), 9 February 07; ``GAPP Director Clarifies 
That Regarding Reported Banning of `Past Stories of Peking Opera Stars' 
and Other Books: We Never Banned Even One Book,'' Zaobao.com.
    \176\ ``Publishers Confirm Being Punished for Printing 
Controversial Books'' [Chubanshe zhengshi bei fa], Ming Pao (Online), 2 
February 07.
    \177\ This year is the 50th anniversary of the start of the anti-
rightist movement, a purge of intellectuals that followed the Hundred 
Flowers Campaign's brief tolerance of dissent. Propaganda officials 
have reportedly ordered China's media to limit coverage of this topic. 
Vivian Wu, ``Court Reject Author's Plea on Ban,'' South China Morning 
Post, 27 April 07.
    \178\ ``China Keeps Its Critics At Home While Promising Greater 
Freedom for Foreign Media,'' Associated Press (Online), 5 February 07.
    \179\ CECC, 2005 Annual Report, 11 October 05, 62; Reporters 
Without Borders (Online), ``Journalist Faces Possible Life Sentence for 
Posting Tiananmen Document on Website,'' 4 February 05; Keith Bradsher, 
``China Announces Media Crackdown,'' New York Times (Online), 15 August 
07.
    \180\ Yahoo!'s general counsel testified at a congressional hearing 
that in October 2005 Yahoo merged Yahoo! China with Alibaba.com, a 
Chinese company. Yahoo! maintained a large equity stake but no longer 
has day-to-day operation control over Yahoo! China. The Internet in 
China-A Tool of Freedom or Suppression?, Testimony of Michael Callahan.
    \181\ Dui Hua Foundation (Online), ``Police Document Sheds 
Additional Light on Shi Tao Case,'' 25 July 07; ``Regarding Court 
Decisions and Security Bureau Documents for Shi Tao, Wang Xiaoning'' 
[Guanyu Shi Tao, Wang Xiaoning de zhongguo fayuan panjue he anquanju 
wenjian], Boxun (Online), 23 July 07; Reporters Without Borders 
(Online), ``Information Supplied by Yahoo! Helped Journalist Shi Tao 
Get 10 Years in Prison,'' 6 September 05. The Internet in China-A Tool 
of Freedom or Suppression?, Testimony of Michael Callahan; 
``Congressional Committee to Investigate Disparity Between Documents 
and Hearing Testimony by Yahoo!,'' House Foreign Affairs Committee 
(Online), 3 August 07; Stephanie Kirchgaessner and Richard Waters, 
``Yahoo Faces Scrutiny in China Case,'' Financial Times (Online), 7 
August 07. In May 2007, Shi Tao also joined a lawsuit against Yahoo! 
filed with the U.S. District Court for the Northern District of 
California, alleging, among other things, that the company had aided 
and abetted the commission of international human rights violations. 
See Amended Complaint for Tort Damages, Xianing et al v. Yahoo! Inc., 
et al., U.S. District Court Northern District California, Oakland 
Division, 29 May 07.
    \182\ Jim Yardley, ``China Releases Jailed New York Times 
Employee,'' New York Times (Online), 15 September 07.
    \183\ The Beijing High People's Court upheld the sentence in 
December 2006. ``Beijing Court Rejects Zhao Yan's Appeal, Affirms 
Three-Year Sentence,'' CECC Human Rights and Rule of Law Update, 
December 2006, 3-4.
    \184\ Reporters Without Borders, ``Journalist Gao Qinrong Released 
Five Years Early,'' 11 December 06. In August 1999, a court in Shanxi 
province sentenced Gao for accepting bribes, fraud, soliciting 
prostitutes. ``After Anti-Corruption Journalists Speaks the Truth'' 
[Fan fu jizhe jiangle zhenhua yihou], Southern Weekend (Online), 12 
December 02. Gao's reporting exposed a sham irrigation project in 
Yuncheng in 1998. ``Gao Qinrong,'' PEN Canada (Online), December 2006. 
Investigative reports by several Chinese news media found that 
authorities in Yuncheng detained Gao in the absence of reliable 
evidence, started building a criminal case against him only after he 
was detained, and convicted him on the basis of insufficient evidence. 
``After Anti-Corruption Journalists Speaks the Truth'' [Fan fu jizhe 
jiangle zhenhua yihou], Southern Weekend (Online), 12 December 02; ``To 
Only Have Right To Interview Is Not Enough'' [Jin you caifangquan shi 
bugou de], Legal Daily (Online), 14 May 01.
    \185\ Dui Hua Foundation, ``Nine-Month Sentence Reduction Confirmed 
for Xu Zerong,'' 26 September 06.

                                 <all>

</pre></body></html>
